<html>
<title> - THE PRESIDENT'S U.N. CLIMATE PLEDGE: SCIENTIFICALLY JUSTIFIED OR A NEW TAX ON AMERICANS?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










                  THE PRESIDENT'S U.N. CLIMATE PLEDGE:
                      SCIENTIFICALLY JUSTIFIED OR
                        A NEW TAX ON AMERICANS?

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             APRIL 15, 2015

                               ----------                              

                           Serial No. 114-14

                               ----------                              

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




















                 THE PRESIDENT'S U.N. CLIMATE PLEDGE: 
                      SCIENTIFICALLY JUSTIFIED OR
                        A NEW TAX ON AMERICANS?

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 15, 2015

                               __________

                           Serial No. 114-14

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-219 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
BILL POSEY, Florida                  MARC A. VEASEY, TEXAS
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma            DON S. BEYER, JR., Virginia
RANDY K. WEBER, Texas                ED PERLMUTTER, Colorado
BILL JOHNSON, Ohio                   PAUL TONKO, New York
JOHN R. MOOLENAAR, Michigan          MARK TAKANO, California
STEVE KNIGHT, California             BILL FOSTER, Illinois
BRIAN BABIN, Texas
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia






















                            C O N T E N T S

                             April 15, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     7
    Written Statement............................................     8

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     9
    Written Statement............................................    11

                               Witnesses:

Dr. Judith Curry, Professor, School of Earth and Atmospheric 
  Sciences, Georgia Institute of Technology
    Oral Statement...............................................    13
    Written Statement............................................    15

The Honorable Karen Harbert, President and CEO, Institute for 
  21st Century Energy, U.S. Chamber of Commerce; Former Assistant 
  Secretary for Policy and International Affairs, U.S. Department 
  of Energy
    Oral Statement...............................................    29
    Written Statement............................................    31

Mr. Jake Schmidt, Director, International Program, Natural 
  Resources Defense Council
    Oral Statement...............................................    43
    Written Statement............................................    45

Dr. Margo Thorning, Senior Vice President and Chief Economist, 
  American Council for Capital Formation
    Oral Statement...............................................    56
    Written Statement............................................    58

Discussion.......................................................    70

             Appendix I: Answers to Post-Hearing Questions

Dr. Judith Curry, Professor, School of Earth and Atmospheric 
  Sciences, Georgia Institute of Technology......................    92

The Honorable Karen Harbert, President and CEO, Institute for 
  21st Century Energy, U.S. Chamber of Commerce; Former Assistant 
  Secretary for Policy and International Affairs, U.S. Department 
  of Energy......................................................    98

Mr. Jake Schmidt, Director, International Program, Natural 
  Resources Defense Council......................................   104

Dr. Margo Thorning, Senior Vice President and Chief Economist, 
  American Council for Capital Formation.........................   110

            Appendix II: Additional Material for the Record

Documents submitted by Representative Zoe Lofgren, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   118

Documents submitted by Representative Gary Palmer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   185

Documents submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   191

Document submitted by Dr. Margo Thorning, Senior Vice President 
  and Chief Economist, American Council for Capital Formation....   333

 
                  THE PRESIDENT'S U.N. CLIMATE PLEDGE:
                      SCIENTIFICALLY JUSTIFIED OR
                        A NEW TAX ON AMERICANS?

                              ----------                              


                       WEDNESDAY, APRIL 15, 2015

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:06 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Smith. Without objection, the Chair is authorized 
to declare recesses of the Committee at any time, and welcome 
to today's hearing titled ``The President's U.N. Climate 
Pledge: Scientifically Justified or a New Tax on Americans?''
    Let me recognize myself for an opening statement, then I 
will recognize the Ranking Member, then I will introduce the 
witnesses, and let me say that because I was late I didn't have 
an opportunity to say hello to each of you individually but we 
very much appreciate your expertise and your presence as well.
    Last June, the Obama Administration proposed sweeping new 
electricity regulations. Now, despite heavy and growing 
opposition to the proposal, the Administration seeks to commit 
America to costly new requirements that won't improve the 
environment. The President has promised the United Nations that 
the United States will cut its greenhouse gas emissions by as 
much as 28 percent over the next decade and by 80 percent or 
more by 2050. He is attempting to write large checks we simply 
cannot cash.
    The pledge was made in preparation for a U.N. summit in 
Paris this December aimed at producing an international 
agreement that would impose legally binding requirements on the 
United States for the next decades. But all of this activity, 
at home and abroad, disregards the concerns of the majority in 
Congress and many states. The President's attempt to justify 
his actions with an alarmist, one-sided focus on worst-case 
scenarios establishes a poor foundation for sound policymaking.
    When President Obama took office, he had an opportunity to 
work with a Democrat-controlled House and Senate to create 
climate legislation. But that effort failed because opposition 
to costly climate regulation crosses party lines. Congress has 
repeatedly rejected the President's extreme climate agenda. So 
the Administration instead has taken the unprecedented step of 
attempting to create laws on his own and twist environmental 
regulations in ways Congress never intended. Now the 
Administration has packaged up all these regulations and 
promised their implementation to the United Nations, but the 
President's Power Plan is nothing more than a power grab.
    Environmental laws can't trump the Constitution. They can't 
give the federal government the right to regulate the daily 
lives of citizens within their homes. Regardless of what the 
President may try to claim, Congress has not given him or the 
Environmental Protection Agency the authority to rewrite laws.
    Opposition to the President's agenda is widespread and 
continues to grow. At least 32 different states are openly 
opposed to the plan and many now consider the possibility of 
refusing to enact his edicts at all. The majority of the 
members of the U.S. House of Representatives and the Senate are 
opposed, and numerous organizations that are concerned about 
the cost and reliability of America's electric grid have issued 
dire warnings about the likely impacts of the President's plan. 
And the EPA's models show there will be no real climate 
benefits.
    Whether that plan can stand up to legal scrutiny will take 
years to sort out. The legality of President Obama's unilateral 
action certainly will not be known when climate negotiators set 
out to create binding international rules in Paris later this 
year. The President's far-reaching proposals and international 
promises will do lasting damage to our Nation, all for little 
to no environmental benefit. In fact, the pledge to the U.N. is 
estimated to prevent only a .03 percent Centigrade temperature 
rise, and in testimony before this Committee, former Assistant 
Secretary for Energy, the Honorable Charles McConnell, noted 
that the President's Clean Power Plan would reduce sea-level 
rise by less than half the thickness of a dime. Meanwhile, 
middle and lower income American families will be hit hardest 
as energy costs inevitably rise.
    The President's pledge to the U.N. hinges on a questionable 
and unclear plan. The commitment submitted two weeks ago lacks 
details about how we will achieve such goals without burdening 
our economy and it fails to quantify the specific climate 
benefits tied to the promise.
    Today is April 15th, Tax Day. It is a day that many 
Americans dread. As more Americans feel squeezed by rising 
costs, flat wages, and rising taxes, we should ask ourselves: 
can we really afford another extreme and expensive mandate? We 
will never reach the President's arbitrary targets, which would 
increase electricity costs, ration energy, and slow economic 
growth. Such severe measures will have no discernable impact on 
global temperatures. They will make the government bigger and 
Americans poorer.
    I expect today's hearing will demonstrate that the 
President's U.N. climate pledge is destructive to the American 
economy and would produce no substantive environmental 
benefits.
    [The prepared statement of Chairman Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    Last June, the Obama Administration proposed sweeping new 
electricity regulations. Now, despite heavy and growing opposition to 
the proposal, the administration seeks to commit America to costly new 
requirements that won't improve the environment.
    The president has promised the United Nations that the United 
States will cut its greenhouse gas emissions by as much as 28 percent 
over the next decade and by 80 percent or more by 2050. He is 
attempting to write large checks we simply cannot cash.
    The pledge was made in preparation for a U.N. summit in Paris this 
December aimed at producing an international agreement that would 
impose legally binding requirements on the United States for the next 
decades.
    But all of this activity--at home and abroad--disregards the 
concerns of the majority in Congress and many states. The president's 
attempt to justify his actions with an alarmist, one-sided focus on 
worstcase scenarios establishes a poor foundation for sound policy-
making.
    When President Obama took office, he had an opportunity to work 
with a Democrat controlled House and Senate to create climate 
legislation. But that effort failed because opposition to costly 
climate regulation crosses party lines.
    Congress has repeatedly rejected the president's extreme climate 
agenda. So the administration instead has taken the unprecedented step 
of attempting to create laws on his own--and twist environmental 
regulations in ways Congress never intended.
    Now the administration has packaged up all these regulations and 
promised their implementation to the U.N. But the president's ``Power 
Plan'' is nothing more than a power grab. Environmental laws can't 
trump the Constitution. They can't give the federal government the 
right to regulate the daily lives of citizens within their homes.
    Regardless of what the president may try to claim, Congress has not 
given him or the Environmental Protection Agency the authority to re-
write laws. Opposition to the president's agenda is widespread and 
continues to grow. At least 32 different states are openly opposed to 
the plan and many now consider the possibility of refusing to enact his 
edicts at all.
    The majority of the members of the U.S. House of Representatives 
and the Senate are opposed. And numerous organizations that are 
concerned about the cost and reliability of America's electricity grid 
have issued dire warnings about the likely impacts of the president's 
plan. And the EPA's models show there will be no real climate benefits.
    Whether that plan can stand up to legal scrutiny will take years to 
sort out. The legality of President Obama's unilateral action certainly 
will not be known when climate negotiators set out to create binding 
international rules in Paris later this year.
    The president's far-reaching proposals and international promises 
will do lasting damage to our nation, all for little to no 
environmental benefit. In fact, the pledge to the U.N. is estimated to 
prevent only a 0.03 degrees C temperature rise. And in testimony before 
this Committee, former Assistant Secretary for Energy, The Honorable 
Charles McConnell, noted that the president's Clean Power Plan would 
reduce sea level rise by less than half the thickness of a dime.
    Meanwhile, middle and lower income American families will be hit 
hardest as energy costs inevitably rise. The president's pledge to the 
U.N. hinges on a questionable and unclear plan. The commitment 
submitted two weeks ago lacks details about how we will achieve such 
goals without burdening our economy. And it fails to quantify the 
specific climate benefits tied to the promise.
    Today is April 15th, Tax Day. It is a day that many Americans 
dread. As more Americans feel squeezed by rising costs, flat wages, and 
rising taxes, we should ask ourselves: can we really afford another 
extreme and expensive mandate?
    We will never reach the president's arbitrary targets, which would 
increase electricity costs, ration energy and slow economic growth. 
Such severe measures will have no discernable impact on global 
temperatures. They will make the government bigger and Americans 
poorer.
    I hope today's hearing will demonstrate that the president's U.N. 
climate pledge is destructive to the American economy and would produce 
no substantive environmental benefits.

    Chairman Smith. That concludes my opening statement, and 
the gentlewoman from Texas, the Ranking Member, Eddie Bernice 
Johnson, is recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and let me 
apologize early that at the completion of my opening statement, 
I will have to depart for another committee markup, but our 
subcommittee Ranking Member, Ms. Bonamici, will take over.
    We are here this morning to discuss the carbon reduction 
target recently submitted by the Obama Administration to the 
United Nations. This target, which is known as the United 
States' Intended Nationally Determined Contribution, sets a 
goal of reducing carbon pollution across the nation by 26 to 28 
percent below 2005 levels by the year 2025.
    Before I get too far into my statement, I would like to 
point out the fact that my colleagues in the Majority failed to 
invite anyone from the Administration to testify at today's 
hearing. It seems to me that the Administration is likely the 
best source to fill in any details regarding the proposal or to 
address any questions or concerns that members of the Committee 
may have. Despite this omission, I am looking forward to 
hearing from today's witnesses, and I welcome you.
    Some may say that the Administration's carbon reduction 
goal is unrealistic or unwarranted, that addressing climate 
change will cause irreparable harm to the Nation's economy or 
that it is based on unsettled science. I disagree with such 
sentiments. I think the target put forward by the President is 
justified. It appears to strike the right balance between 
ambition and achievability, and perhaps, most importantly, it a 
sends a strong and much-needed signal--I am so sorry; this is 
my allergy season--to the rest of the world about the 
seriousness of the United States in addressing the impacts of 
climate change. Such a position is critical to meaningful 
international engagement.
    I have been clear in my position that the time to address 
climate change is now. The potential costs of inaction are too 
high for us to continue to drag our feet or put our heads in 
the sand. A sobering report from a nonpartisan and well-
respected group of business and financial leaders, including 
Michael Bloomberg, Henry Paulson, and Tom Steyer, titled 
``Risky Business--The Economic Risks of Climate Change in the 
United States,'' highlights the significant costs climate 
change has exacted and will continue to exact on our economy. 
The report presents a long list of concerns, including rising 
seas, increased damage from storm surge, more frequent bouts of 
extreme heat, and shines a light on the cost of inaction to 
private businesses across the country.
    However, the economic costs of inaction are not the whole 
story. There are also serious public health impacts associated 
with climate change. Greater risk of asthma attacks, heat 
stroke, food and waterborne as well as respiratory diseases are 
all consequences of a warming climate. I know that some still 
question whether climate change is happening or if humans have 
contributed significantly to the impacts currently being 
observed. I know such opinions will be expressed again today, 
but it seems to me that most of the world has moved beyond such 
debates and is instead focused on taking concrete steps to 
address the problem at hand.
    We in Congress have to acknowledge that we are not the 
experts on the science, and that allowing partisan politics to 
distort the scientific understanding of climate change is 
cynical and shortsighted. We, as a nation, must act today to 
address climate change if we are to preserve our quality of 
life for our children and grandchildren, and some old people 
like me. The negative consequences of climate change are not 
abstract scientific predictions for the far-off future. We are 
facing some of these consequences now and they are affecting 
every American.
    The President's Climate Change Action Plan and the goal 
submitted to the United Nations represent commonsense steps 
that will lead to a healthier environment, because acting on 
climate change is not only an environmental imperative, but a 
public health and economic one as well.
    In closing, I would like to draw on a recent op-ed from Bob 
Inglis, a former member, a Republican member of this Committee 
with whom I served, and Jack Schlossberg, comparing the 
challenge of addressing climate change to the space race. They 
state: ``Climate change is only scary if we chose to sit, wait, 
and do nothing about it. Climate change is a chance for all of 
us to add a chapter to the story of American triumph and human 
progress. Courage of this scale will come from a people who are 
told they can do great things by leaders who believe that their 
people are capable of great things. We believe America will see 
opportunity in the danger of climate change just like we saw 
benefits on Earth from travel in space.''
    I thank you, Mr. Chairman, and I yield back the balance of 
my time.
    [The prepared statement of Ms. Johnson follows:]

          Statement submitted by full Committee Ranking Member
                         Eddie Bernice Johnson

    Thank you, Mr. Chairman. We are here this morning to 
discuss the carbon reduction target recently submitted by the 
Obama Administration to the United Nations. This target, which 
is known as the United States' Intended Nationally Determined 
Contribution sets a goal of reducing carbon pollution across 
the nation by 26 to 28 percent below 2005 levels by the year 
2025.
    Before I get too far into my statement, I'd like to point 
out the fact that my colleagues in the Majority failed to 
invite anyone from the Administration to testify at today's 
hearing.
    It seems to me that the Administration is likely the best 
source to fill in any details regarding the proposal or to 
address any questions or concerns Members of this Committee may 
have. Despite this omission, I'm looking forward to hearing 
from today's witnesses.
    Some may say that the Administration's carbon reduction 
goal is unrealistic or unwarranted; that addressing climate 
change will cause irreparable harm to the nation's economy or 
that it is based on "unsettled" science. I disagree with such 
sentiments. I think the target put forward by the President is 
justified. It appears to strike the right balance between 
ambition and achievability.
    And perhaps, most importantly, it a sends a strong and much 
needed signal to the rest of the world about the seriousness of 
the United States in addressing the impacts of climate change. 
Such a position is critical to meaningful international 
engagement.
    I have been clear in my position that the time to address 
climate change is now. The potential costs of inaction are too 
high for us to continue to drag our feet or put our heads in 
the sand.A sobering report from a non-partisan and well-
respected group of business and financial leaders, including 
Michael Bloomberg, Henry Paulson, and Tom Steyer, entitled, 
Risky Business--The Economic Risks of Climate Change in the 
United States, highlights the significant costs climate change 
has exacted and will continue to exact on our economy.
    The report presents a long list of concerns, including 
rising seas, increased damage from storm surge, more frequent 
bouts of extreme heat, and shines a light on the cost of 
inaction to private businesses across the country.
    However, the economic costs of inaction are not the whole 
story. There are also serious public health impacts associated 
with climate change. Greater risk of asthma attacks, heat 
stroke, food and waterborne as well as respiratory diseases are 
all consequences of a warming climate.
    I know that some still question whether climate change is 
happening or if humans have contributed significantly to the 
impacts currently being observed.
    I know such opinions will be expressed again today, but it 
seems to me that most of the world has moved beyond such 
debates and is instead focused on taking concrete steps to 
address the problem at hand.
    We in Congress have to acknowledge that we are not the 
experts on the science, and that allowing partisan politics to 
distort the scientific understanding of climate change is 
cynical and short-sighted.
    We, as a nation, must act today to address climate change 
if we are to preserve our quality of life for our children and 
grandchildren. The negative consequences of climate change are 
not abstract scientific predictions for the far-off future. We 
are facing some of these consequences now and they are 
affecting every American.
    The President's Climate Action Plan and the goal submitted 
to the United Nations represent common-sense steps that will 
lead to a healthier environment, because acting on climate 
change is not only an environmental imperative, but a public 
health and economic one as well.
    In closing, I'd like to draw on a recent op-ed from Bob 
Inglis, a former Republican Subcommittee Chairman of this 
Committee, and Jack Schlossberg comparing the challenge of 
addressing climate change to the space race. They state: 
``Climate change is only scary if we chose to sit, wait, and do 
nothing about it. Climate change is a chance for all of us to 
add a chapter to the story of American triumph and human 
progress. Courage of this scale will come from a people who are 
told they can do great things by leaders who believe that their 
people are capable of great things. We believe America will see 
opportunity in the danger of climate change just like we saw 
benefits on Earth from travel in space.''
    Thank you and I yield back the balance of my time.

    Chairman Smith. Thank you, Ms. Johnson.
    Our first witness is Dr. Judith Curry, Professor and former 
Chair of the School of Earth and Atmospheric Sciences at the 
Georgia Institute of Technology, and President of Climate 
Forecast Applications Network. Dr. Curry performs extensive 
research that focuses on air and sea interactions, climate 
feedback processes associated with clouds and sea ice, and the 
climate dynamics of hurricanes. Dr. Curry also serves on the 
NASA Advisory Council Earth Science Subcommittee and the 
Department of Energy Biological and Environmental Research 
Advisory Committee. She recently served on the National 
Academy's Climate Research Committee, the Space Studies Board, 
and the NOAA Climate Working Group. Dr. Curry received her 
Ph.D. in atmospheric science from the University of Chicago.
    Our next witness is Ms. Karen Harbert, President and CEO of 
the U.S. Chamber of Commerce's Institute for 21st Century 
Energy. Ms. Harbert leads efforts to build support for 
meaningful energy action through policy development, education 
and advocacy. Under her leadership, the Institute established 
the groundbreaking Index of Energy Security Risk and the 
International Index of Energy Security Risk, the first tools to 
quantify America's energy security on an annual basis. Before 
joining the Chamber, Ms. Harbert served as the Assistant 
Secretary for Policy and International Affairs at the 
Department of Energy. She was the Primary Policy Advisor to the 
Secretary of Energy and to the Department on domestic and 
international energy issues. She also served as Vice Chairman 
of the International Energy Agency, which advises its 28 member 
nations on energy policy issues and orchestrates international 
responses to energy supply disruptions. Ms. Harbert received 
her bachelor's degree in international policy studies and 
political science from Rice University.
    Our third witness is Mr. Jake Schmidt, the Director of the 
International Program at the National Resources Defense 
Council. Mr. Schmidt has 14 years of experience in 
international climate policy with a focus on climate change, 
clean energy, biogems, and sustainable development in India, 
Latin America, Canada, and at the international level. He leads 
NRDC's policy development and advocacy on international climate 
change including through climate negotiations and direct work 
with key countries around the world. Mr. Schmidt holds a 
bachelor's degree in economics from Muhlenberg College and a 
master's degree in environmental policy with a certificate in 
ecological economics from the University of Maryland.
    Our final witness is Dr. Margo Thorning, Senior Vice 
President and Chief Economist for the American Council for 
Capital Formation and Director of Research for its public 
policy think tank. She also serves as the Managing Director of 
the International Council for Capital Formation. Dr. Thorning 
is an internationally recognized expert on tax, environmental 
and competitiveness issues. Dr. Thorning has made presentations 
on the economic impact of climate change policy at forums in 
China, India, the European Union, and Russia. In addition, she 
recently made a presentation titled ``Investing in Energy and 
Industrial Development: Challenges and Opportunities'' at a 
U.N. Commission on Sustainable Development meeting. Prior to 
joining the American Council for Capital Formation, Dr. 
Thorning served at the Department of Energy, the Department of 
Commerce, and the Federal Trade Commission. Dr. Thorning 
received her bachelor's degree from Texas Christian University, 
her master's degree in economics from the University of Texas, 
and her Ph.D. in economics from the University of Georgia.
    We welcome you all. You are clearly all experts, and it is 
just coincidental that two of you all have degrees from Texas 
universities, but that is nice to see.
    Dr. Curry, we will begin with you.

           TESTIMONY OF DR. JUDITH CURRY, PROFESSOR,

           SCHOOL OF EARTH AND ATMOSPHERIC SCIENCES,

                GEORGIA INSTITUTE OF TECHNOLOGY

    Dr. Curry. I would like to thank the Committee for the 
opportunity to present testimony this morning.
    I am concerned that both the climate change problem and its 
solution have been vastly oversimplified. The central issue in 
the scientific debate on climate change is the extent to which 
the recent and future warming is caused by human-caused 
greenhouse gas emission versus natural climate variability 
associated with variations from the sun, volcanic eruptions, 
and large-scale ocean circulations.
    Recent data and research supports the importance of natural 
climate variability and calls into question the conclusion that 
humans are the dominant cause of recent climate change. This 
includes the substantial slow-down in global warming since 
1998, reduced estimates of the sensitivity of climate to carbon 
dioxide, and climate models that are predicting much more 
warming than has been observed so far in the 21st century.
    While there are substantial uncertainties in our 
understanding of climate change, it is clear that humans are 
influencing climate in the direction of warming. However, this 
simple truth is essentially meaningless in itself in terms of 
alarm and does not mandate a particular policy response.
    We have made some questionable choices in defining the 
problem of climate change and its solution. First, the 
definition of dangerous climate change is ambiguous, and 
hypothesized catastrophic tipping points are regarded as very 
or extremely unlikely in the 21st century. Efforts to link 
dangerous impacts of extreme weather events to human-caused 
warming are unsupported by evidence. Climate change is a wicked 
problem and ill-suited to a command-and-control solution. And 
finally, it has been estimated that the U.S. national 
commitments to the U.N. to reduce emission by 28 percent will 
prevent three hundredths of a degree Centigrade in warming by 
2100. The inadequacies of current policies based on emissions 
reductions are leaving the real societal consequences of 
climate change and extreme weather events largely unaddressed, 
whether caused by humans or natural variability.
    The wickedness of the climate change problem provides much 
scope for disagreement amongst reasonable and intelligent 
people. Effectively responding to the possible threats from a 
warmer climate is made very difficult by the deep uncertainties 
surrounding the risk both from the problem and the proposed 
solutions.
    The articulation of a preferred policy option in the early 
1990s by the United Nations has marginalized research on 
broader issues surrounding climate variability and change and 
has stifled the development of a broader range of policy 
options. We need to push the reset button in our deliberations 
about how we should respond to climate change.
    As an example of alternative options, pragmatic solutions 
have been proposed based on efforts to accelerate energy 
innovation, build resilience to extreme weather, and pursue no-
regrets pollution-reduction measures. Each of these measures 
has justifications independent of their benefits for climate 
mitigation and adaptation.
    Robust policy options that can be justified by associated 
policy reasons, whether or not human-caused climate change is 
dangerous, avoids the hubris of pretending to know what will 
happen with the 21st century climate.
    This concludes my testimony.
    [The prepared statement of Dr. Curry follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Smith. Thank you, Dr. Curry, and Ms. Harbert.

           TESTIMONY OF THE HONORABLE KAREN HARBERT,

                       PRESIDENT AND CEO,

               INSTITUTE FOR 21ST CENTURY ENERGY,

                   U.S. CHAMBER OF COMMERCE;

             FORMER ASSISTANT SECRETARY FOR POLICY

                   AND INTERNATIONAL AFFAIRS,

                   U.S. DEPARTMENT OF ENERGY

    Hon. Harbert. Thank you, Chairman Smith and the Ranking 
Members of the Committee. I want to make four points today 
regarding the Obama Administration's Intended Nationally 
Determined Contribution to the UNFCC.
    First, the U.N.--the U.S. INDC lacks basic information to 
allow a rigorous assessment of the goal. The commitment is long 
on promises but short on data needed for a proper assessment. 
Nowhere does it explain how the Administration intends to get 
to its 26 to 28 percent reduction target. The Administration's 
math just doesn't add up. We estimate that the announced and 
forthcoming regulations out of EPA including EPA's Clean Power 
Plan still leave between 500 and 600 million tons or more of 
the Administration's commitment still unaccounted for, and 
without a sector-by-sector breakdown, we just don't know how 
the Administration expects to achieve its target.
    Indeed, yesterday EPA Air Administrator McCabe acknowledged 
in House testimony that they have yet to do a comprehensive 
modeling of all of the regulations that constitute this 
proposal, and surprisingly, nowhere in the INDC is there any 
reference to industrial emission. It is hard to imagine getting 
there without addressing the industrial sector. EPA's current 
budget proposal notes the Agency will soon begin considering 
new regulations on the refining, pulp and paper sector, iron 
and steel sector, livestock, and cement sectors, so there is 
more to come.
    It is also difficult to see how this plan can be sold to 
the international community, especially given the uncertain 
legal foundation upon which it rests. In its Utility Air 
Regulatory Group v. EPA ruling, the Supreme Court warned EPA 
against using ``unheralded power to regulate a significant 
portion of the American economy.'' This certainly constitutes a 
significant portion of the American economy. Thirty-two states 
have now raised legal objections to it, and the first case will 
appear before the Supreme Court tomorrow, and EPA Air 
Administrator McCabe said yesterday they do expect litigation 
to last for years.
    Secondly, the commitments are hugely unequal. If the world 
is serious about reducing greenhouse gas emissions, then 
developing countries will have to take on huge commitments. 
However, indications are that that is not happening. China 
provides a very useful example. It has pledged to peak its 
carbon emission around 2030 and to increase its share of non-
fossil-fuel consumption to around 20 percent is business as 
usual. In fact, in the International Energy Agency's most 
recent outlook, which was released before China and the United 
States made this announcement, it actually models the Chinese 
proposals and policies currently in place and comes to the same 
conclusion, which is, they will peak just around 2030. This is 
nothing new. ExxonMobil's forecast confirms the same.
    To put a finer point on it, yesterday in testimony here, 
the Arkansas Cooperative Executive that testified in front of 
the House said that the most advanced coal-fired power plant 
today in America is in Arkansas, the Turk power plant. Under 
EPA's proposal, it will close. In China, on the other hand, 
they have 46 of these plants, and under their proposal they can 
now build 44 more of these plants. India has declined to make a 
very aggressive proposal before Paris, and the Russian 
Federation's proposal actually allows it to increase its 
emission compared to the 2012 level.
    Third, the Administration's plan is all pain. It is poised 
to be one of the most costly and burdensome regulations and 
rulemakings and proposals ever. Its own analysis suggests that 
electricity prices will go up 6 to seven percent by 2020 and up 
to 12 percent in other locations, and compliance costs could 
rise to about $8-1/2 billion by 2030. That is on top of what 
EIA released yesterday, which is an 18 percent increase in 
electricity rates between now and 2040 without the 
Administration's Clean Power Plan. NERA, an economic consulting 
firm, did another analysis which said it is probably going to 
increase more like 12 percent, and compliance costs would be 
much higher than EPA forecasts. We should take note of that 
because EPA has been wrong in the past. For their proposal of 
mercury air toxins reductions, which they promulgated in 2012, 
they estimated that there would be 5 gigawatts of coal-fired 
generation retired. Today, it is actually 50 gigawatts 
attributed to that rule, a factor of 10.
    And fourth, the Administration's plan has no gain. It is 
important to note that despite all of these costs, EPA admits 
under the Clean Power Plan that the heart of this will have no 
discernible impact on the environment, and that is because of 
carbon leakage as U.S. energy-intensive industries move to 
other countries and deprive us of revenue, tax revenue, and 
employment. Our diverse electricity sector, which has afforded 
us very affordable energy as opposed to other parts around the 
world, will actually be taken away from us.
    Conclusion: We need the industry that is investing here, 
the chemical industry, the manufacturing industry, the steel 
and pulp and paper industry, but those industries may move. We 
need a predictable environment, and this actually upends the 
predictable environment of investing in America, which is bad 
for the American economy.
    Thank you very much.
    [The prepared statement of Hon. Harbert follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    
    Chairman Smith. Thank you, Ms. Harbert.
    And Mr. Schmidt.

                 TESTIMONY OF MR. JAKE SCHMIDT,

                DIRECTOR, INTERNATIONAL PROGRAM,

               NATURAL RESOURCES DEFENSE COUNCIL

    Mr. Schmidt. Thank you. Thank you, Chairman Schmidt--
sorry--Chairman Smith, Ranking Member Johnson, and 
distinguished members of the Committee. Thank you for inviting 
me to present the Natural Resources Defense Council's views on 
the U.S. target to cut emission 26 to 28 percent below 2005 
levels by 2025 to address climate change.
    We have a responsibility to protect our children and future 
generations from the effects of climate change by reducing 
emission of carbon dioxide and other heat-trapping pollutants. 
This can be done in a manner that protects public health, spurs 
job creation, and helps address the significant damages from 
climate change. Acting responsibly at home is also an essential 
component of efforts to secure strong global action including 
for major emitters. Our actions at home show other countries 
that the world's largest economy is prepared to rise to the 
challenge to address climate change.
    The consequences of inaction on climate change are grave. 
We are already seeing the impacts of climate change on our 
communities and facing substantial costs from these impacts. 
Strong and sustained efforts to address carbon pollution and 
other heat-trapping pollutants can significantly decrease these 
impacts on the U.S. and other countries.
    The new U.S. climate target is essential to helping stave 
off the worst of these impacts. The U.S. target can be achieved 
under existing law cost-effectively. Under existing law, 
President Obama has set in motion a number of carbon-cutting 
actions including carbon pollution standards for America's 
power plants, improved vehicle efficiency standards, appliance 
efficiency standards, efforts to address methane leakage, and 
standards to reduce the climate pollution of coolants used in 
air conditioners and refrigerators. This new target will build 
upon these efforts as all these standards have time frames that 
extend past 2020 to give businesses longer-term certainty for 
their investment decisions.
    The U.S. can meet both its 2020 and 2025 targets using 
existing laws like the Clean Air Act, energy efficiency laws, 
and steps to protect our public lands and waters. These cuts 
can be achieved cost-effectively while helping to create jobs 
and achieving important health benefits for our children. Time 
and again, American ingenuity, entrepreneurs, and workers have 
risen to address great challenges. That opportunity to address 
this challenge is why more than 140 entrepreneurs recently 
wrote in support of the new U.S. target to cut its emissions.
    As you know, U.S. action at home also helps spur global 
action. For almost two decades, inaction on climate change in 
the U.S. has been a major stumbling block to securing strong 
international action on climate change. When the United States 
is willing to step forward domestically, it can have a 
catalyzing impact in other countries. This is evident in the 
new commitments from China and the recent one from Mexico. As 
part of the U.S.-China agreement, China's president committed 
to peak its emission by 2030 with the intention to peak earlier 
and to build an increased amount of non-fossil-fuel energy to 
amount to 20 percent of its energy by 2030. This is a 
commitment to even deeper cuts in its climate pollution that 
many expected was achievable just a few short years ago. In 
fact, prior to the announcement, many experts including the 
U.S. Energy Information Administration predicted that China's 
emission wouldn't peak until well after 2040, and you can see 
that in other analysis.
    This U.S. action couldn't come at a more critical juncture. 
As leaders meet later this year to finalize a new commitment to 
address climate change, this agreement will solidify even 
deeper commitments from key countries around the world. Already 
the European Union, Switzerland, Norway, Mexico, and China have 
announced the outlines of their new commitments as a part of 
this agreement and more countries around the world like India, 
South Korea, Brazil, South Africa, and Indonesia are diligently 
working on their proposed targets as a part of the 
international agreement.
    In summary, let me conclude with, if the U.S. target can be 
achieved cost-effectively under existing law, when the world's 
largest economy acts, it sends a powerful signal to other 
governments that they also can and must act aggressively on 
this grave challenge of climate change.
    Thank you.
    [The prepared statement of Mr. Schmidt follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Smith. Thank you, Mr. Schmidt.
    Dr. Thorning.

                TESTIMONY OF DR. MARGO THORNING,

           SENIOR VICE PRESIDENT AND CHIEF ECONOMIST,

             AMERICAN COUNCIL FOR CAPITAL FORMATION

    Dr. Thorning. Thank you, Chairman Smith, Ranking Member 
Johnson, for the opportunity to appear before this committee.
    I'd like to make three or four points, picking up on some 
of what the other witnesses have said. First, it's not clear 
that developing countries like China and India will actually 
implement strong measures to slow the growth of their 
emissions.
    Second, reaching the Administration's target of 17 percent 
below 2005 levels by 2020 seems unlikely since we're only 9.5 
percent down right now from 2005. So how we would reach a 26 to 
28 percent reduction by 2025 seems very challenging.
    And third, how will the various regulatory measures 
described in the INDC to reduce carbon emissions impact the 
U.S. economy?
    Looking at trends in global energy use, the International 
Energy Agency's 2014 statement suggests that energy use is 
going to grow by 37 percent to 2040. Why do we think the 
developing countries will actually be able to meet stringent 
reduction targets? Their emissions are the ones that are 
growing fast. The United States' emissions are relatively flat. 
So it's questionable that the targets that are being discussed 
will actually be met.
    What is the economic impact on the United States of the 
INDC? Investment in the United States is already quite 
sluggish. It hasn't recovered to the 2007 levels. Net 
investment, net depreciation is sluggish, productivity growth 
is slow, wage growth is slow. We need to be sure that the 
policies that we undertake aren't going to negatively impact 
our attempt to recover a strong economy.
    The question of whether developing countries will actually 
follow projected emission cuts, if they look at the European 
Union, the European Union over a decade ago was implementing 
strong policies to reduce GHGs to switch toward renewables. 
They have enjoyed very sluggish economic growth, very high 
unemployment rates, about 11 percent. So looking at the 
European lesson, why would developing countries want to follow 
that kind of a path?
    On the other hand, there are ways that the United States 
can move forward to try to slow the growth of emissions. There 
are policies that we can undertake that will actually be no-
regrets policies, will actually increase economic growth. For 
example, tax reform. Congress and Senate Finance and Ways and 
Means are discussing tax reform. Scholarly research suggests 
that allowing expensing for all new investment would pull 
through cleaner, less-emitting technologies and help us reduce 
GHG growth, as well as other emissions.
    A study by the ACCF and Ernst & Young last year showed that 
allowing expensing for all new investment would reduce the cost 
of capital by about 25 percent, whereas the Bowles-Simpson 
plan, if implemented, would actually increase the cost of 
capital. Research shows that each ten percent reduction in the 
cost of capital for new investment increases investment by five 
percent. So tax reform should be on the table as a way of 
addressing GHG reductions.
    Second, we should encourage the export of liquefied natural 
gas. Cleaner-burning fuel to our allies and trading partners in 
China and India and Europe would help them reduce their 
emissions while growing their economies. And recall that over 2 
billion people have no electricity; 1.3 billion are cooking 
with biomass and dung and coal, so we need to try to export our 
surplus of LNG, which is--seems to be growing every year.
    Then we also should encourage international financing for 
clean coal technology. My colleague George Banks recently 
produced a research paper on that topic and I'd like to request 
that that paper be submitted for the record.
    Chairman Smith. Without objection, so ordered.
    [The information appears in Appendix II]
    Dr. Thorning. So a third thing I think we should do to try 
to stimulate our economy, as well as reduce GHG growth, is be 
careful to use cost-benefit analysis. Other witnesses have 
discussed the fact that reducing U.S. emissions significantly 
will have no impact on the temperature or on concentrations of 
GHG, so we should be using cost-benefit analysis, and we should 
also be adopting--encouraging the adaptation to climate change 
through no-regrets strategies in agriculture, for utilities, 
and other industries.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Thorning follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Smith. Thank you, Dr. Thorning.
    I will recognize myself for five minutes for questions.
    And, Dr. Curry, let me address my first one to you.
    Earlier this year, NASA claimed that 2014 was the warmest 
year on record, and then they put in a footnote a disclaimer 
that they were actually only 38 percent sure that that was the 
case, less than 50/50. That's amazing. But quite frankly, you 
seldom hear disclaimers from the so-called experts who always 
seem to be 100 percent certain that they are right. Actually, 
as you know, the scientific method itself actually says that we 
should continue to question and challenge our hypotheses, not 
just assume we're 100 percent right. So in many instances I'm 
thinking these so-called scientists really aren't acting very 
scientifically.
    But in any case, I have a couple quick questions for you. 
One is that the President keeps talking about or keeps trying 
to connect human-caused climate change to extreme weather 
examples such as hurricanes and wildfires, and he keeps being 
contradicted by his own Administration officials. Why he keeps 
doing it, I don't know. But who is right, the President or 
others who say there's really no demonstrable connection 
between these extreme weather events like hurricanes and 
wildfires and human-caused climate change?
    Dr. Curry. Well, the Intergovernmental Panel on Climate 
Change, who I regard as a little bit on the alarmist side 
frankly, even they acknowledge in their Special Report on 
Extreme Events--Weather Events and Climate Change published in 
2012 that there was essentially no connection observed in the 
historical record between human-caused climate change and 
extreme weather events. They found a few regional examples 
where there was a trend like heat waves in Australia and things 
like that but really no----
    Chairman Smith. Yes.
    Dr. Curry. They didn't find anything. And why this 
continues to be touted by the Administration is pure politics. 
I mean people respond a lot more to extreme weather events than 
they do to like a 2 degree temperature change or something.
    Chairman Smith. It's regrettable that we have the political 
leader of our country saying statements that we have reason to 
believe he must know are not accurate, so I thank you for your 
comment on that.
    Another question is that the two percent increase in global 
temperature is often seized upon as a tipping point, and if the 
temperature increases by two percent, all kinds of dire 
consequences will result. Is there anything magic about two 
percent. Where did we get that figure? Is it arbitrary or is 
there some scientific validity to 2 percent and not 2.5 or not 
1.5 or something like that?
    Dr. Curry. Well, the 2 degree target was a carefully 
negotiated number, okay, that doesn't have much basis, you 
know, in science. The one scientific concern that was put 
forward was that this would be the amount of warming that would 
cause some of these tipping points like a shutdown in the 
Atlantic circulation or collapse of the major ice sheets. But 
again, the IPCC, in its recent assessment report, found these 
to be extremely unlikely in the timescale of the 21st century. 
So there's really not much to that number other than a 
politically negotiated----
    Chairman Smith. Yes.
    Dr. Curry. --danger sign.
    Chairman Smith. And thank you for that. And by the way, 
just as a side comment, the experts that make predictions as to 
what's going to happen 85 years from now or 100 years from now 
and are absolutely certain that that's going to occur, whatever 
those dire consequences are, the only thing I will say about a 
100-year prediction is that it's not going to be what is 
predicted. And it's too bad that again the scientists are 
actually not using the scientific method on that.
    Ms. Harbert, let me ask you, you did a great job of going 
through those countries and what they are contributing or not 
contributing to the UN Treaty, but going back to China for a 
second, we have heard this from--we have heard the promises 
that we have recently heard from China for years and years and 
years and they never really come through on those promises. Is 
there any reason for us to believe that China is suddenly going 
to do what it claims it's going to do and much of what it 
claims it's going to do isn't going to occur for years from 
now? Why should we be suspicious about some of these countries' 
commitments?
    Hon. Harbert. Well, China's priority is economic growth. 
And we look at all of the forecasts and China's economy is 
beginning to slow down. If you look at the International Energy 
Agency's World Energy Outlook, they forecast a slowdown which 
would actually show that China's emissions will peak just 
around the 2030 time frame, which is what they agreed to in 
this announcement. Now, let's be clear. This was an 
announcement. This was not an agreement; this was not any type 
of binding commitment that the United States and China agreed 
to in the visit to Beijing.
    I think it's highly unlikely that we will see anything 
happen before that. China is building coal-fired power capacity 
faster than we are. They are building lots of things faster 
than we are. And we're looking at an emissions trajectory that 
was going to peak at the time frame they are agreeing to. So 
this is business as usual. They had already agreed to the 
renewables targets. They had already agreed to everything in 
that agreement they had already put down on paper before.
    Chairman Smith. Okay. Thank you.
    And with the indulgence of my colleagues, I'm going to try 
to squeeze in one more question even though my time is up and 
that's to Dr. Thorning.
    Dr. Thorning, you're aware of this, but President Obama, 
when he was in law school, had as a professor a well-known 
constitutional expert by the name of Laurence Tribe. Recently, 
Professor Tribe testified, ``The EPA is attempting to exercise 
lawmaking power that belongs to Congress and judicial power 
that belongs to the Federal courts.'' He added that, ``Burning 
the Constitution should not become part of our national energy 
policy,'' amazing statement with which I happen to agree.
    Well, both Ms. Harbert and you have mentioned the 
litigation that is out there. What happens if the clean power 
rule is thrown out, as many legal experts, including Professor 
Tribe, expect?
    Dr. Thorning. Well, I think the question of how that 
uncertainty about future directions will impact the business 
community is significant. Uncertainty retards investment, 
raises the cost of capital, so we need certainty and clarity 
and transparency about what our policies are going to be.
    Chairman Smith. Okay. Thank you all for your answers today.
    And the gentlewoman from California, Ms. Lofgren, is 
recognized for questions.
    Ms. Lofgren. Well, welcome to the Science Committee, the 
last place on the planet where we question whether climate 
change is being caused by human activity.
    Mr. Schmidt, it seems to me that the reality of 
anthropogenic climate change is really impossible to deny by 
reliable scientists all over the world. People are facing new 
challenges resulting from the rapid increase in greenhouse gas 
emissions, heavier precipitation events, consistently higher-
than-average global temperatures, warming ocean, rising sea 
levels, increased incidence of extreme weather, severe 
droughts, changes in the spread of infectious disease, changes 
in ocean chemistry, and other ecological and public health 
impacts. Now, the scientific consensus about the contributions 
of humans to climate change is overwhelming. However, Dr. Curry 
and our Chairman appear to deny such consensus exists, and Dr. 
Curry suggests, ``If humans are not the dominant cause of 
climate change, then attempts to modify the climate through 
reducing GHG emissions will have little impact on future 
climate change.''
    Do you believe, Mr. Schmidt, that human activities are the 
main cause of climate change?
    Mr. Schmidt. Yes, we do. We draw our conclusions from the 
vast majority of the climate scientists through the 
Intergovernmental Panel on Climate Change, as well as the U.S. 
National Climate Assessment, which surveys the landscape in 
terms of opinion and views and research analysis of the vast 
majority of the climate science community. And they have 
consistently found for the past 15 or more years that, yes, in 
fact humans are causing climate change, that our contributions 
are significant, and that there are severe damages coming 
forward. We are at .8 degrees centigrade increase in 
temperature since preindustrial levels, and many of the impacts 
that you have outlined are already being felt.
    Ms. Lofgren. I would ask unanimous consent that we place in 
the record of this hearing the report entitled ``Climate Change 
2014 Synthesis Report Summary for Policymakers'' from the IPCC. 
And I would note that contrary to the testimony of one of the 
witnesses, on page 7 of that report they find that changes in 
many extreme weather and climate events have been linked to 
human influences, including a decrease in cold temperature 
increases, an increase in warm temperature extremes and an 
increase in extreme high sea levels, and an increase in the 
number of heavy precipitation events in a number of regions.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Ms. Lofgren. I would also ask unanimous consent that the 
report entitled ``Climate Change: Evidence and Causes, An 
Overview from the Royal Society and the U.S. National Academy 
of Sciences'' be placed in the hearing record and would note 
that on page 15 of that report they find that lower atmosphere 
is becoming warmer and moister as a result of human-emitted 
greenhouse gases. This gives the potential for more energy for 
storms and certain severe weather events, consistent with 
theoretical expectations, heavy rainfall and snowfall events, 
which increase the risk of flooding. And heat waves are 
generally becoming more frequent trends and extreme rainfall 
vary from region to region. The most pronounced changes are 
evident in North America and parts of Europe, especially in 
winter.
    Chairman Smith. That will be made a part of the record but 
I don't know if that's necessary since you read it all.
    [The information appears in Appendix II]
    Ms. Lofgren. I--no, the rest of the report, I would need 
more than my five minutes.
    Let me just ask you, Mr. Schmidt, as you're aware, critics 
of the EPA rule have a sky-is-falling attitude towards actions 
that would protect the health of Americans and do something 
about emissions, which I think kind of ignores the fact that 
the U.S. economy has tripled in size since the adoption of the 
Clean Air Act in 1975. Concerns are raised that the Clean Power 
Plan is going to cause residential electricity rates to 
increase dramatically. Those most in need are going to suffer 
the most. Is that the case, and how will the efforts to reduce 
carbon emissions such as the Clean Power Plan affect low-income 
Americans?
    Mr. Schmidt. Well, I think you are right to point out that 
oftentimes there is a sky-is-falling analysis that's presented, 
and we have seen this time and again in terms of environmental 
protection when the United States first took steps to deal with 
acid rain. The cost of--the cost estimates for many of the 
modelers predicted very significant impacts across the economy, 
and I think we have found that the economy has grown 
significantly and we, lo and behold, have very much lower acid 
rain as a result of that. And we have seen that--excuse me--
across the board in terms of many environmental challenges.
    When we have analyzed what EPA has proposed and what's 
possible in the power sector, we have found that you can 
actually make cuts on the order of 36 percent below 2005 levels 
by 2020 and 44 percent by 2030 in the power sector with net 
benefits estimated to be up to 70 billion and 108 billion 
respectively. So these are significant benefits that can be 
achieved very cost-effectively through things like energy 
efficiency, you know, assuming real cost of energy efficiency, 
real cost of renewables like wind and solar, and reasonable 
transitions in terms of natural gas and so forth.
    And so with these kinds of efforts we can see significant 
benefits to the public and to low-income families as well and 
still deal with this challenge of climate change.
    Ms. Lofgren. Thank you, Mr. Schmidt.
    And, Mr. Chair, my time is expired. I yield back.
    Chairman Smith. Thank you, Ms. Lofgren.
    And the gentleman from Alabama, Mr. Palmer, is recognized 
for his questions.
    Mr. Palmer. Thank you, Mr. Chairman.
    Dr. Curry, you mentioned uncertainty and the importance of 
understanding the actual climate variability. Before inferring 
sensitivity to greenhouse gases and how there has been a hiatus 
in global warming since '98, could you explain how the 
Administration claims that 2014 is the warmest year on record?
    Dr. Curry. Okay. There have been a number of--there's about 
a half a dozen different groups doing these analyses and all 
but one of them found that 2014 was right at the top. But if 
you look at the uncertainty in these measurements, even knowing 
that, most of them found that 2014 was in a statistical tie 
with two other years, 2005 and 2010, and the U.K. group, with a 
far more realistic assessment of the uncertainty, found that 
2014 was tied with nine other years statistically. You really 
couldn't distinguish them statistically. That, however, is not 
the way all this was communicated to the public. It was touted 
as warmest year.
    Mr. Palmer. Can you discuss to what degree our 
understanding of these issues are uncertain? You know, what are 
the current key gaps in our understanding? Talk about the 
models if you don't mind.
    Dr. Curry. Okay. In terms of the climate models, the key 
issues--I mean if you compare the climate models with the 
observed temperature over the past decade, you see that the 
climate models are running way too hot. Since 1998 surface--
global surface temperature has increased a tiny bit and it's 
not statistically significant given the uncertainties, whereas 
climate models were predicting 2/10 of a degree per decade in 
the early years of the 20th century. So you're seeing this 
growing divergence between the climate models and the 
observations.
    The key uncertainties are how the models treat aerosols in 
the atmosphere like little tiny particles. That's a major 
uncertainty. They don't get the ocean circulations in--
particularly in terms of the timing, the magnitude, and the 
pattern of these major oscillations. They don't include a lot 
of the indirect effects from solar variations and they don't 
correctly simulate the effects of clouds, which have a very big 
impact on the climate. So there's a large number of 
uncertainties in these climate models and things that we know 
we don't have right.
    Mr. Palmer. When you mention clouds, you're referring to 
water vapor as well, right?
    Dr. Curry. Well, yes, water vapor.
    Dr. Curry. The biggest uncertainty and the biggest impact 
is from the actual condensed clouds themselves.
    Mr. Palmer. Is it also true that what we found in 
measurements in terms of deep atmosphere is in conflict with 
what the models should have shown?
    Dr. Curry. Yes. The temperature--the atmospheric 
temperatures from satellite also diverge even more from the 
climate models.
    Mr. Palmer. Is it also true that the modeling does not 
reflect what has actually occurred over the last 30 or so 
years? There's a discrepancy--a wide variance in what the 
models would have shown that the temperature would be versus 
what it actually was?
    Dr. Curry. Yes, that's correct.
    Mr. Palmer. Then in your experience do you think this sort 
of rhetoric coming from the White House is unprecedented to the 
scientific community?
    Dr. Curry. Well, there have been some rather extreme 
statements coming from the White House that don't seem to be 
justified by even the--you know, the basic evidence and the 
assessment reports from the IPCC and so on.
    Mr. Palmer. Given the status of some of the scientists who 
raised these issues about the fallibility of the models----
    Dr. Curry. Um-hum.
    Mr. Palmer. --and the uncertainty of the science, does that 
reflect well on how these issues should be debated?
    Dr. Curry. We have gotten caught in this really toxic mess 
where these politics have become scientized and the science has 
become politicized, and I'm not exactly sure how to break out 
of this. But again, it's the job of the scientists to 
continually evaluate evidence and reassess conclusions.
    Mr. Palmer. If I may, I'd like to ask one question of Dr. 
Thorning.
    Dr. Thorning, the Administration continues to assert that 
the United States can substitute renewable energy for fossil 
eco-energy without negative consequences. As a matter of fact, 
they think that we should be at 80 percent renewables within 
the next two or three decades. Can you explain why we can't 
just rely on renewables?
    Dr. Thorning. Well, renewable energy--pardon me; I have 
allergies, too. Renewable energy tends to be a lot more 
expensive than conventional energy from fossil fuel or nuclear. 
EIA's most recent assessment of the capital cost for renewable 
energy shows that new natural gas is about $60 a kilowatt hour 
versus for offshore wind about $240 a kilowatt hour. Solar is 
also more expensive, and because the wind doesn't blow all the 
time and the sun doesn't shine all the time, you have to back 
those up with conventionals. So renewable energy----
    Mr. Palmer. May I interject something right there just for 
a moment? If you have to back them up with natural gas or other 
fossil fuels, does that not indicate that renewables are not 
reliable?
    Dr. Thorning. Well, that's one of the drawbacks because we 
don't have the capacity to store solar right now and the wind 
doesn't blow all the time. So--and we did an analysis of States 
with renewable portfolio standards compared to those that don't 
and the States with the renewable portfolio standards had 
energy costs on average about 20--electricity costs about 20 
percent higher than the States without portfolio standards. So 
if you're thinking of how to grow the U.S. economy, forcing 
renewable energy is probably going to retard growth, not help 
it. And--you know, because it has to be backed up, you're not 
really having much of an impact on U.S. emissions.
    Mr. Palmer. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Palmer.
    The gentleman from Virginia, Mr. Beyer, is recognized.
    I'm sorry. We will go back to the gentlewoman from Oregon, 
Ms. Bonamici is recognized. I didn't realize you had returned.
    Ms. Bonamici. Thank you, Mr. Chairman. And I appreciate 
that and I hope that my having to be in two places at once does 
not indicate my lack of interest in this important topic. We 
are also working on child nutrition in another committee.
    Thank you so much to the witnesses for being here today. 
Climate change is an important issue to my constituents in 
northwest Oregon, and whether I'm talking about people who live 
on the coast who rely on a healthy ocean or growers of our 
famous pinot grapes in Yamhill County or entrepreneurs who are 
developing new clean energy technologies, there are many people 
who are working to address and mitigate the impacts of climate 
change in my State of Oregon.
    Now, there have been several statements here about how 
reducing carbon emission has costs, but we should also consider 
the costs of inaction. We have shellfish growers on our coast 
and many of them have spoken with me about the significant 
losses because of ocean acidification. Oyster production is an 
$84 million industry on the West Coast and supports more than 
3,000 jobs in my State. Ocean acidification is threatening this 
industry, as well as those in the Gulf of Mexico, New England, 
mid-Atlantic. And this just doesn't matter to coastal 
representatives; it's important to restaurants and grocery 
stores and people who eat shellfish across the country.
    Now, later today, I'm going to have an opportunity to visit 
with some of the Oregonians who grow wine grapes in my 
district, and I want to mention that the wine economy in Oregon 
is valued at more than $3 billion and supports more than 17,000 
jobs. Wine grapes are especially vulnerable to temperature 
extremes. Excess heat can raise the sugar level of grapes, for 
example, which, along with drought, threatens this important 
industry.
    So, Mr. Schmidt, you discussed in your testimony some of 
the increased costs associated with climate change. Do you 
agree that if we continue to do little or nothing, these costs 
will continue to rise? And can you talk just a little bit about 
the terms of lost jobs, for example, and areas like agriculture 
if we refuse to act? And I do want to have time for another 
question as well.
    Mr. Schmidt. Well, thank you. I will keep it brief then.
    I think it's true. When you think about the impacts that 
come from climate change, they are at this--sort of fundamental 
components of the American economy. How often does it rain, 
when does it rain, how much temperature variability at certain 
points? And you're seeing some real-world examples of that in 
California where they are suffering from very severe droughts 
that are having a huge ripple effect across the entire economy, 
in agriculture, and happy to share with you some of our 
analysis of ocean acidification, which shows devastating 
impacts potentially across the entire fishing economy of the 
United States, which is significant, as you know.
    Ms. Bonamici. Thank you. And, yes, we also have outdoor 
recreation activities that have been seriously hampered here 
because no snowpack.
    So in taking a leadership role to address climate change, 
the United States has an opportunity to further spur innovation 
and development of sustainable technologies. And, Dr. 
Thornburg, thank you for mentioning the States that have 
renewable energy portfolios. I was actually in the Oregon 
Legislature when we passed the legislation, and I'm proud to 
have supported that, to require that the State's largest 
utilities derive 25 percent of their 2025 sales from renewable 
sources.
    We have a significant amount of hydropower as well in 
Oregon, and one way that our State is working to meet this 
benchmark is to be a leader in areas like wind energy. We are 
involved in generation, manufacturing, and the industry employs 
more than 1,000 Oregonians. We have also made a strategic 
decision to become an international leader in the development 
of wave energy technology, and we have partnered with the 
government on some research in that area.
    So, Mr. Schmidt, you have established that we are already 
paying significant costs driven by climate change. Can you talk 
about how the U.N. Framework Convention will positively impact 
our domestic clean energy sector and innovation and economy 
nationwide?
    Mr. Schmidt. Well, it will have very significant positive 
impacts we believe. What you're seeing in places like China and 
India is a massive expansion of wind and solar demands. India 
has a target to get to 100 gigawatts of solar by 2022. And I 
was just there in February and I can tell you that there's a 
huge amount of attention and focus on delivering that. They 
have lots of sun. They have 300 days of sun, you know, some of 
the best sun in the world. They also have significant wind 
potential.
    China does as well. Despite this perception that China is 
not going to do anything for 16 years under this new 
commitment, that's just not true. They are building a massive 
amount of wind and solar.
    And so what you see happening is that the more that these 
clean energy markets are growing internationally, that American 
companies are tapping into this. And this is a key component 
when we talk to entrepreneurs. They see this huge sort of 
market potential both within the United States and externally. 
So the products that they build to meet standards and 
regulations in the United States now become the kinds of 
technologies that they can export around the world and tap into 
those opportunities.
    Ms. Bonamici. Well, thank you very much. I see my time is 
expired and I yield back. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    And the gentleman from Texas, Mr. Neugebauer, is recognized 
for his questions.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    A lot of different areas here and I kind of want to explore 
two or three of them.
    One of the issues is let's say we move forward with some 
kind of an agreement with these other countries. What kind of a 
verification process will be put in place? Are they going to 
allow us to fly drones over their countries and do satellite 
imaging? I mean how do we know that they are playing by the 
rules? Because one of the things that I have seen in other 
areas of our government is we play by the rules but some of the 
people that we make agreements with don't necessarily play by 
the rules. And so how do we make sure everybody is playing by 
the rules? Ms. Curry--Dr. Curry?
    Dr. Curry. I will defer to the other witnesses on that. 
That's something that I don't have much expertise on.
    Mr. Neugebauer. Yes.
    Hon. Harbert. The answer is we won't know. It's a 
voluntary, you know, monitoring and self-reporting, as we have 
seen under--that's why we had the Foreign Corrupt Practices 
Act. We play by the rules; many other countries don't, and 
that's something we need to be concerned about. Even though 
they have vague commitments, they will have even a vaguer 
ability to ensure that they are meeting their commitments.
    Mr. Neugebauer. Yes. One--and also I guess the other 
question along with that, so it's voluntary, but what is the 
regulatory infrastructure in those countries and what kind of 
regulations do they have? The President is proposing pretty 
rigorous regulatory proposals and this Administration has put 
out a lot of very extraneous proposals. But how do they compare 
with the United States, these other countries?
    Hon. Harbert. The answer is that there are--very few 
commitments have been made. The deadline was March the 31st to 
make the commitments to the United Nations and less than a 
dozen countries have made the commitment, so we don't know what 
the commitments will be going forward.
    Mr. Neugebauer. Do they have EPAs--I mean are they 
organized? Is there enforcement mechanisms that are as 
organized as the United States?
    Hon. Harbert. I think it's fair to say the United States 
has the most rigorous environmental--most stringent regulations 
on the books of the developed world.
    Mr. Schmidt. Do you mind if I add some perspective to that? 
From our work in China we have a major effort in China working 
on environmental challenges because it has many, as you know--
what we have found consistently--and I think that they are at a 
critical tipping point. Any time you travel to anywhere in 
China now you see that the air pollution is terrible. That's a 
major challenge for the government and they get that because 
social instability is the thing that scares them the most. And 
so the number one issue around social unrest today is air 
pollution in the country, and so that's why we have seen them 
begin to control the amount of air pollution and coal 
consumption in some of the key provinces. And just last year 
was the first time in over--almost two decades that China's 
emissions actually declined by about two percent. Their coal 
consumption declined as a result of many of these measures.
    Mr. Neugebauer. I think you have made one of my points 
there is that everywhere you go in China it's foggy and it is a 
problem.
    I think the other issue is--and, Dr. Curry, you're talking 
about modeling and how the actual temperatures and projected 
temperatures and various models that have been put together. I 
remember I had an opportunity to travel to the South Pole a 
number of years ago and there were some climate people there 
and they were showing me these projections of temperatures back 
5,000 years moving forward, and they were models because 
obviously they probably didn't have thermometers 5,000 years 
ago. If we do, we haven't been able to find any of the 
recordings. So when those models aren't correct and we make a 
huge amount of policy based on what we think the models are and 
the potential outcomes and we miss those models, what are the 
consequences of that?
    Dr. Curry. Well, this is why I argued that for a very 
wicked, complex problem, some sort of, you know, explicit 
targets and command and control really isn't a very good policy 
choice. And this is why I suggest that we need a broader range 
of policy options on the table that leave us less 
vulnerability--less vulnerable to really getting it wrong.
    Mr. Neugebauer. Aren't we kind of betting the ranch on an 
outcome we're not even sure about and a problem we have not 
quite defined?
    Dr. Curry. Yes. There are two possibilities. One, that we 
could spend all this money and really nothing happens with the 
climate and we have sunk--you know, it's an opportunity lost. 
On the flipside, if the climate really is going to turn out 
worse than we think, what will be left is inadequate solutions, 
damaged economies, and technologies that aren't up to scratch. 
So, you know, we risk of both of these things by, you know, 
focusing on these technologies that are really inadequate to 
the problem. We need to invest in better energy technologies 
that are really up to the challenge. Wind and solar aren't 
going to do it.
    Mr. Neugebauer. I see my time is expired, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Neugebauer.
    The gentleman from Virginia, Mr. Beyer, is recognized for 
his questions.
    Mr. Beyer. Thank you, Mr. Chairman, very much.
    I found myself deeply troubled by Dr. Curry's written and 
oral testimony, and I respect your career and your academic 
background and am grateful that you're here, but I found the 
testimony just full of internally conflicting facts and 
opinions and in almost total conflict with everything I have 
read in the last 15 years in every journal I could get my hands 
on. So let me offer three examples and ask Dr. Curry for a 
response.
    First, you are highly critical of the precautionary 
principle. By the way, there's a third option there, which is 
we do nothing and the worst happens and we're embarrassed for 
the generations to come because we didn't react.
    But you are highly critical of the precautionary principle. 
You said, ``Extensive costs and questions of feasibility are 
inadequate for making a dent in slowing down the expected 
warming.'' Then the very next sentence you state, ``The real 
societal consequences of climate change in extreme weather 
events remain largely unaddressed.''
    A second, you--I'm quoting from your written testimony, 
``Is it possible that something really dangerous and unforeseen 
could happen to Earth's climate during the 21st century? Yes, 
it's possible, but natural climate variability, let me 
emphasize, perhaps in conjunction with human-caused climate 
change, may be a more likely source of possible undesirable 
change that human causes. In any event, attempting to avoid 
such a dangerous and unforeseen climate by reducing fossil fuel 
emissions will be futile if natural climate is a dominant 
factor.''
    And then the very next page, ``Climate change may 
exacerbate environmental problems that may be caused by 
overpopulation, poorly planned land use, over-exploitation of 
natural resources. However, it's very difficult to separate out 
the impacts of human-caused climate change from natural climate 
change and from other societal impacts. So does it really make 
any difference? We can't change sunspots or ocean circulation 
or even cloud cover, but we can impact the human-caused part of 
this wicked problem.''
    And finally, at the end of your written testimony you say, 
``There is reason to be concerned about climate change,'' which 
sort of undoes the first 8 pages.
    Dr. Curry. Okay.
    Mr. Beyer. ``Uncertainty is a two-edged sword. Future 
climate outcomes might be better or worse than currently 
believed.'' And then you propose a different set of solutions 
based on climate pragmatism, accelerated energy innovation, 
building resilience to extreme weather, and no-regrets 
pollution reduction. So it's almost like climate change is real 
but let's not talk about fossil fuel burning and the impact on 
greenhouse gases on what that does to all this.
    Dr. Curry. Okay. The confusion is this: Scientifically, the 
term climate change means a changing climate and it has changed 
for, you know, the past 4 billion years or so. Okay. This whole 
issue of human-caused climate change is a relatively recent 
notion. So climate is always changing and it's going to change 
in the future. The issue is how much of the change is caused by 
humans. We don't know. We don't know what the 21st century 
holds. The climate change may be really unpleasant and that may 
happen independently of anything that humans do.
    My point is is that we don't know how much humans are 
influencing climate and whether it's going to dominate in the 
21st century. Given that we don't know this, we're still going 
to see extreme weather events whether or not humans are 
influencing the climate. This is what I'm talking about, that 
we really don't know how the 21st century is going to--climate 
is going to play out, and we should figure out how to reduce 
our vulnerability to whatever might happen, and that includes 
extreme weather events are going to happen regardless of 
whether humans are influencing climate change. So maybe that 
clarifies my testimony.
    Mr. Beyer. A little but not much. I mean all science is 
contingent. We continue to learn. We continue----
    Dr. Curry. Yes.
    Mr. Beyer. You must be humble at all times with what we 
know.
    Dr. Curry. Yes.
    Mr. Beyer. But it seems to me very much sticking our head 
in the sand to look at all of the evidence of what has happened 
with global warming in the last 30 years. By the way, the 
debate over whether it's 2004 or 2009 or 2014----
    Dr. Curry. Okay.
    Mr. Beyer. --is the warmest year seems silly----
    Dr. Curry. Okay.
    Mr. Beyer. --when 10 of the last----
    Dr. Curry. Okay. The climate has been warming since the 
1700s, okay, since we came out of the Little Ice Age. We don't 
know what is causing that warming in the 18th century, in the 
19th century. It's not attributed to humans so there are other 
things going on in the climate system that has been 
contributing to a warming over several centuries. We can't 
blame all of this on humans, okay, and we don't know how all of 
this is going to play out in the 21st century. We just don't 
know.
    Mr. Beyer. We just had a vice president who was willing to 
argue for enhanced interrogation and torture on the one percent 
chance of that Al Qaeda might someday get a nuclear weapon. Are 
we going to do nothing because there's a greater than one 
percent chance that climate change----
    Dr. Curry. There's nothing in my testimony that said we do 
nothing. I'm saying that what is being proposed is ineffective. 
It's not going to do anything. Even if the United States is 
successful at meeting 80 percent reductions by 2050, this is 
going to reduce warming by about 1/10 of a degree centigrade. 
It's not going to do anything. So should--I'm saying we need to 
acknowledge that and rethink how we are going to deal with the 
risk from future climate change, whether it is caused by human 
or natural processes. That's what I'm saying.
    Mr. Beyer. Okay. Thank you, Dr. Curry, very much.
    Mr. Chairman, my time is up. Thank you.
    Chairman Smith. Thank you. Mr. Beyer, those were good 
questions.
    By the way, you mentioned head in the sand. The best 
example I know of head in the sand is the Los Angeles Times 
announcing a policy that they will no longer cover climate 
change skeptics, nor will they publish letters to the editor on 
the subject.
    I not going to ask you whether you agree or disagree 
because I have a hunch you might agree that we need to be open-
minded and continue to challenge our hypotheses. But----
    Mr. Beyer. I will always agree, Mr. Chair.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from Oklahoma, Mr. Bridenstine, is recognized 
for his questions.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Dr. Curry, you're the professor and former chair of the 
School of Earth and Atmospheric Sciences at the Georgia 
Institute of Technology, Georgia Tech. You have a Ph.D. in 
atmospheric science from the University of Chicago. Prior to 
joining the faculty at Georgia Tech, you had faculty positions 
at the University of Colorado, Penn State University, and 
Purdue University.
    There are a lot of us probably especially on this side of 
the aisle who are confused because during this conversation we 
have heard that climate change has caused snowpack in some 
States, it has caused drought in other States, it has caused 
extreme weather, you know, experiences in other States. I come 
from Oklahoma. We know what extreme weather is. This is very 
confusing to us, that climate change is causing these vast 
changes, you know, I guess weather events. And really when 
you're talking about States that are next door to each other in 
one State it's causing snowpack, in the next-door State it's 
causing drought, can you share with us what your professional 
judgment is on that analysis?
    Dr. Curry. Well, climate--extreme weather events and 
weather patterns is really, you know, just dominated by random 
chaotic variations in the atmosphere and ocean circulations. 
There are some regimes that get established that allow you some 
predictability. In the large ocean circulations like the 
Pacific decadal oscillation and the Atlantic multi-decadal 
oscillation have a big decadal controls on the weather 
patterns, and a lot of the extreme weather that we're seeing 
now has analogues back in the 1950s when the patterns were sort 
of similar. So trying to blame this on human is really rather 
pointless. It happens to be weather variability.
    The strange weather that we have seen in the United States 
this past winter with warmth and dry in the West and a lot of 
snow and cold in the East has been associated with a blocking 
pattern triggered by a warm blob in the Pacific that has been 
there, you know, for almost a year now. And scientists don't 
know how to explain the appearance of that warm blob but it's 
something related to natural variability, not human causes. 
So----
    Mr. Bridenstine. Thank you for your analysis. I think you 
have pretty much answered it.
    I'd like to direct my questions to Ms. Harbert. By the way, 
welcome from a fellow Rice Owl. It's good to see you here.
    In your opinion, how much--or if you know--you probably 
have the facts--how much coal-fired power generation in the 
United States--will the United States lose under the EPA's 
latest most recent round of power plant regulations? I have 
heard it is about 100 gigawatts. Is that your assessment as 
well?
    Hon. Harbert. Well, we already know that between 2012 and 
2016, so we are almost at the end of that period, that close to 
60 gigawatts of closures have already been announced and are 
underway. Beyond that, we expect and we see announcements every 
day of an additional 40 to 50 gigawatts. So your number is 
accurate. That's taking a tremendous amount of power off of the 
system with little plan to replace it with anything 
sustainable.
    Mr. Bridenstine. So one of the things I'm hearing is that 
that's about one third of total coal-fired capacity in our 
country. Is your analysis similar? Is that about right?
    Hon. Harbert. That's accurate.
    Mr. Bridenstine. Okay. For my State of Oklahoma we derive 
most of our electricity from coal, and those coal-fired power 
plants are being shuttered. Can you explain for my constituents 
at home what this means to their electricity prices?
    Hon. Harbert. Absolutely. In the State of Oklahoma the 
estimate is that the prices of electricity under this proposal 
would go up between 18 and 21 percent, 21 percent at the peak. 
Now, it's very important to understand that 21 percent is on 
top of what is already forecast by EIA of an 18 percent 
increase. So you're looking at a huge increase in Oklahoma, and 
particularly when you're looking at 55 percent of the 
households in Oklahoma contribute more than 20 percent of their 
income, they are low-income households, this is going to hit 55 
percent of those the hardest.
    Mr. Bridenstine. So it hurts the poor the most?
    Hon. Harbert. It hurts the poor and the elderly the worst.
    Mr. Bridenstine. So anything about current and proposed 
regulations, the Clean Power Plan, CAFE standards, among 
others, these lead to necessary reductions to achieve the 
United States--will these achieve the United States' intended 
nationally determined contribution?
    Hon. Harbert. Today, we're enjoying low electricity prices 
and low natural gas prices. These proposals will eliminate that 
comparative advantage and still not meet the goals that are 
laid out in the INDC.
    Mr. Bridenstine. If we're to reach our commitments of 26 to 
28 percent reduction, will that mean also shuttering natural 
gas-fired power plants?
    Hon. Harbert. With the multitude of regulations, including 
ozone, you're not going to be able to build at new capacity, so 
that won't even shutter ones. It will not allow you to build 
new ones. So we are looking at a very big different economy by 
2025. And I think you should note that 40 percent of the 
commitment the Administration made in their INDC, they have not 
accounted for how they are going to reach it, so more to come.
    Mr. Bridenstine. My constituents have been very concerned 
about coal. This shocks me that they also need to be worried 
about natural gas-fired power plants.
    With that, Mr. Chairman, I'm out of time and I will yield 
back.
    Chairman Smith. Thank you, Mr. Bridenstine.
    The gentleman from Arkansas, Mr. Westerman, is recognized 
for his questions.
    Mr. Westerman. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman.
    Ms. Harbert, you mentioned in your testimony the Turk 
plant, which happens to be in my district, and I have had the 
opportunity to visit the Turk plant. I'm also an engineer and 
have designed many industrial facilities, and it is a very 
impressive plant. And I will say this about all of 
manufacturing in the United States, the facilities I have been 
involved with, they go to great extents to meet all permitting 
requirements. They are very conscientious about being good 
stewards of the environment. But when we see a plant like the 
Turk plant that is a super hypercritical coal facility, best 
technology in the world, if that plant can't meet emissions, 
that's simply saying that we are going to abandon coal as a 
fuel source if we can't use technology like at the Turk plant.
    And when we look across the renewable energy spectrum, 
which I have done projects in renewable energy as well, they 
are not nearly as economically competitive as traditional 
fuels, and we also see that they have got technical problems 
with peak demand and baseline loads.
    So I think my question is more questioning the overall 
premise of our energy policy and our effort to use more 
renewables. Wouldn't it make more sense, while traditional 
energy prices are low, to divert more research into renewables 
to make those technologies more efficient so that as we make 
our traditional fuels more scarce in the future, our renewables 
become more economic and will provide a much better energy 
source for the future? So I know you have worked with the 21st 
Century--you know, Institute for 21st Century Energy. I'd like 
to get your input and maybe even Dr. Curry's input on how we 
need to maybe rethink the premise of our whole energy policy 
and the way we address using renewables in the future.
    Hon. Harbert. I think two quick points. It's ironic that 
under the Administration's proposal that we would be forced to 
close the Turk plant because it cannot meet the expectations of 
the proposal, and yet to highlight the disparity in 
obligations, China will continue to be able to build those 
plants, 54 new plants just like that one and yet we can't build 
one here.
    You know, the idea should be--you know, the idea under this 
Administration's proposal is to make today's affordable energy 
more expensive. And what we should be focusing on is making a 
broad variety of energy more affordable, including alternatives 
like wind and solar, make it more competitive and let the 
market work. That's what is good for the American economy, 
that's what is good for the consumer, that's what is good for 
your constituents.
    But this is going to raise electricity prices in Arkansas. 
And particularly, you know, if you look at Arkansas, you have 
got 61 percent of the households in Arkansas which are 
considered low-income households which spend 20 percent of 
their income on energy, they are going to be hit the worst. We 
should be offering them more options, not fewer, more expensive 
options.
    Mr. Westerman. Dr. Curry, would you like to add to that?
    Dr. Curry. I will just make a comment about wind energy and 
solar energy, the great intermittence and the challenges of 
integrating wind and solar power into the grid. My company 
provides weather forecasts, and one of the things we do is 
predict wind power, and it's enormously variable. Ramps are 
very unpredictable and you basically have to have a backup 
power supply ready. And so you have to make--you know, the day 
before you have to make a commitment as to whether you're going 
to fire up the coal burner, the gas burner, whatever backup 
power source, and you just don't know. There's a great deal of 
uncertainty. And so it's very difficult to integrate into the 
grid and it's not clear because of the backup power sources and 
the extra power required to ramp up these burners, you know, 
whether you're actually saving any CO<INF>2</INF> emissions in 
this process. So we really need substantially better 
technologies that this is going to meaningfully reduce the 
CO<INF>2</INF> emissions.
    Mr. Westerman. Yes. When we talk about CO<INF>2</INF> 
emissions, even, you know, some of the policies that come out 
of here seem to be counterproductive to reducing CO<INF>2</INF> 
emissions, even with our forests that we fail to manage 
properly that emits, you know, 70, 80, 90 million tons per year 
of carbon into the atmosphere because we haven't managed those 
forests correctly. So I think we just need to focus on the 
science and how to make all of our energy sources more 
economical for the future. And with that, Mr. Chairman, I think 
I'm out of time.
    Chairman Smith. Thank you, Mr. Westerman.
    And the gentleman from Florida, Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman.
    Ms. Harbert, in your testimony you said that the numbers 
that the United States pledged to the United Nations do not add 
up. I wonder if you would expound on that a little bit for me.
    Hon. Harbert. Certainly. If you take all of the stated 
regulations that they have put into their INDC and add up the 
EPA's estimated carbon reductions, they still come up 40 
percent short. So it is evident that there is more action 
that's going to be needed to meet that 26 to 28 percent cut. On 
top of that, in that submission to the United Nations, they say 
that we are going to meet an additional target of an 80 percent 
reduction by 2050 with absolutely no plan, no proposal, no 
narrative, no evidence of how we're going to get there. So the 
math does not add up.
    Mr. Posey. Okay. I remember when Australia passed the 
Australian version of cap-and-trade, national energy tax, 
whatever, and I met with two members of Parliament yesterday, 
one of them I guess was the essential representative of our 
Senate and the other one represented essentially our House, and 
they told me that Australia rescinded their national energy tax 
cap-and-trade plan, said it was the biggest mistake, both of 
them, and they were a liberal party, by the way. Both of them 
said it was in their opinion the biggest mistake their 
government ever made.
    Hon. Harbert. And largely--and hugely unpopular with the 
Australian people, which is why the subsequent government, in 
listening during their election campaign, then rescinded that 
pledge. And by the way, Australia has yet to make a pledge to 
the United Nations for this round.
    Mr. Posey. Okay. Well, I was going to ask why you thought 
that they rescinded it because we didn't get that far in the 
conversation, and now you have told me. I guess the cost of it 
was unbearable on the citizens and they were losing business 
left and right is what they told me. They didn't tell me about 
the grassroots uprising.
    Hon. Harbert. And they have a very dependent economy on 
coal and coal production and that was certainly under threat. 
They are a mining, you know, economy.
    But we also just don't have to look to Australia. I think 
somebody mentioned in testimony earlier we just need to look 
across the pond to Europe about what we don't want to do and 
look at what has happened under the cap-and-trade trading 
system in Europe and electricity prices have gone up, emissions 
have not gone down, they have not met their Kyoto requirements. 
And here in the United States without all of these government 
mandates and based on the private sector initiative and 
innovation, we have in essence met what would have been our 
Kyoto targets.
    So we can prove that energy and the environment can 
coexist, and those that would like to have the argument that 
it's energy or the environment need to understand that that's 
not the path that the economies of the world and the developing 
economies are going to pursue.
    Mr. Posey. I know during the National Prayer Breakfast I 
guess--and I don't remember the title from Spain but pretty 
much lectured us on the responsibility of adopting a cap-and-
trade policy. Are you familiar with where they are with their 
policy in Spain?
    Hon. Harbert. I know that Spain has heavily relied on 
subsidizing renewable energy and subsequently hemorrhaged a 
tremendous amount of jobs, about a 2-for-1 job loss in the 
renewable industry, and so they have largely abandoned that 
proposal.
    You know, I would call your attention to an article in 
today's New York Times about this exact issue, and the New York 
Times itself says that, you know, no poor nation can take care 
of its environment and so we should be very careful in how we 
approach this. But if you don't offer people an opportunity, 
we're never going to get to a point to resolve this on a global 
basis.
    Mr. Posey. Thank you for your comments.
    Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Posey.
    The gentleman from Michigan, Mr. Moolenaar, is recognized 
for his questions.
    Mr. Moolenaar. Thank you, Mr. Chairman.
    And thank you for being here today and for your testimony.
    And I wanted to just share a story with you and then ask 
you maybe some questions. The situation we had in Michigan a 
while back in my district where we had a major manufacturer of 
polycrystalline silicon, which goes into solar panels, and very 
excited about the solar markets, one of the challenges with 
that is the main criteria for that company to be successful 
making that product that goes into solar panels was low-cost 
electricity. And so we actually had an investment go from our 
State to a different State because there was a lower-cost 
electricity.
    Now, what I'm hearing in Michigan is that we're going to be 
losing a number of our coal plants, and I think and my 
understanding is in China they are building more and more coal 
plants, which will then allow them to be much more competitive 
actually in building solar panels.
    And so I guess one of the questions I had, Dr. Thorning, 
and I think it was in Mr. Schmidt's testimony he stated that 
China's president Xi Jinping--I'm probably not pronouncing that 
right--committed to peak the carbon pollution by 2030, but I 
think the actual agreement released by the White House says 
China intends to achieve the peaking of carbon dioxide 
emissions around 2030 rather than by 2030.
    And I guess my question, Dr. Thorning, is this. You know, 
if other countries don't make the same level of commitment that 
we are making and we sort of unilaterally disarm our coal 
plants that would actually allow us to be leaders in 
manufacturing because of the low cost of electricity, aren't we 
paying a huge political price or a competitive price for kind 
of a political statement that says we are doing something at 
the same time when others may not be equally committed to that 
in a sort of a unilateral disarmament if you will?
    Dr. Thorning. That's really the central theme of my 
testimony, that we would be incurring substantial cost. And as 
Dr. Curry and others have said, the overall impact on global 
GHG emissions is almost nonexistent. So--and to pick up on 
points that others have made, a strong economy is able to 
weather and adapt to climate change. A strong economy can make 
the investments needed to slowly bring in the type of equipment 
that would allow us to grow and reduce GHG emissions.
    So if we go down this path that this Administration is 
trying to push us toward, we will certainly lose 
competitiveness, we will lose jobs, we will slow our growth. 
The Clean Power Plan is certainly not going to be helpful to 
the environment.
    I would like to clarify on Chairman Smith's question. If 
the courts rule this as a legal, the question is what comes 
next? It would certainly be a good thing if it were ruled 
illegal, but the question is what comes next? Because 
uncertainty is what is retarding investment, so we need 
transparency in our energy policy. So I think policymakers need 
to weigh very carefully as we go forward. If we make these 
enormous sacrifices, loss of jobs, low-income people 
disproportionately hit, States dependent on coal suffering the 
consequences of higher prices, what do we gain for it? And I 
make the case we gain almost nothing.
    Mr. Moolenaar. Okay. Thank you.
    And then, Dr. Curry, I just wanted to get your perspective 
as a scientist. You know, my understanding is, you know, 
science moves forward when people are skeptical. They come up 
with new ideas and they test those ideas and there's a peer-
review process and there's an opportunity to criticize and the 
academic freedom to criticize people's findings, and it creates 
a whole new scientific debate based on that. What strikes me 
about a lot of the argument around climate change is you have 
people who are saying the debate is over or they are saying 
scientists, you know, unanimously agree. And to me any time 
someone says a debate is over in science it strikes me as not 
really scientific. And I'm sure you have encountered some of 
that, and what are your thoughts on that?
    Dr. Curry. Well, I have definitely encountered that, and 
whenever I despair over what is going on in the climate field, 
I look at the recent collapse of the consensus on cholesterol 
and heart disease, okay, and, you know, even though it's, you 
know, strongly enforced by funding and reputation and authority 
and groupthink, that these things, if they are not correct, 
will eventually collapse.
    Skepticism is one of the four norms of science. It's 
absolutely essential for scientific progress. It's our job to 
question the evidence and reassess conclusions. And that's what 
we are supposed to do. However, in the climate field there is 
this manufactured consensus that we are all supposed to step in 
line and follow, and it's rather bizarre given this very 
complex and poorly understood climate system. We need lots more 
debate. We need to explore natural climate variability in 
particular if we are ever going to understand all this. And 
it's--disagreement and debate is really what moves the 
knowledge frontier forward, and this is being stifled and it is 
of great concern to me.
    Mr. Moolenaar. Thank you very much.
    And thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Moolenaar.
    The gentleman from Kentucky, Mr. Massie, is recognized.
    Mr. Massie. Mr. Chairman, thank you.
    I yield as much time as he may consume to Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Massie. Thank you, Mr. Chairman.
    Dr. Curry, it's very timely that you would end that last 
comment on talking about climate variability. It was mentioned 
earlier about the drought in California. Isn't it true that the 
recent research has indicated that California has been through 
much more severe droughts in the immediate ancient past? And we 
have had a series of droughts. We had a drought in the American 
Southwest in the 13th century that apparently contributed to 
the decline of the Pueblo cities. Tree rings indicate that we 
had a major drought in the Mississippi River basin between the 
14th and 15th centuries that contributed to the disappearance 
of the Mississippian culture. And we have had three major 
droughts in the 19th century, mid-1850s, 1870s, 1890s, and then 
the Dust Bowl drought of the 1930s. Could you comment on that, 
what might have caused those?
    Dr. Curry. Well, drought is nothing new in the American 
West. We have seen droughts in the American West. In the 20th 
century there was a drought of comparable magnitude in 
California in the 1890s and then the mega-droughts, you know, 
13th, 14th centuries. Again, these were caused by natural 
variability, some combination of something going on in the sun, 
the ocean circulation, whatever. The exact mechanisms 
contributing to those previous droughts are unknown but we 
can't guarantee that it was not human-caused drought in the 
13th century. So natural climate variability can bring some 
unpleasant surprises. And in terms of extreme weather events, I 
would say that natural climate variability is far and away the 
dominant factor of what we have seen in terms of recent extreme 
weather.
    Mr. Palmer. Would you conclude that a drought that lasted a 
century or more would be considered a severe weather event?
    Dr. Curry. No, I guess I would call that, you know, climate 
event but it is, yes, where you draw the line between weather 
and climate. Drought really goes into the climate territory.
    Mr. Palmer. All right. Well, that makes my point, though, I 
think that when you have major changes in climate and attribute 
it to anything manmade, I think it calls into question some of 
the modeling. And I think it was you that made the point about 
the Little Ice Age, but not much is discussed about the warming 
period, the medieval warming period that occurred prior to that 
that I don't think can be attributed to anything anthropogenic.
    So thank you, Mr. Massie.
    Mr. Chairman, I appreciate it.
    Chairman Smith. Okay and----
    Mr. Palmer. I yield the balance of my time.
    Mr. Massie. Mr. Chairman, I yield back.
    Chairman Smith. Thank you both.
    And the gentleman from Texas, Mr. Babin, is recognized.
    Mr. Babin. Thank you, Mr. Chairman. I really appreciate it.
    Thank you for being here, all of you esteemed witnesses.
    Dr. Thorning, I would ask you--first a comment. I worry 
that regulations associated with climate change will increase 
the costs of energy to American citizens. It's a big issue in 
my district in Texas 36, especially hardworking families who 
are already struggling to get by. Could you describe how 
increased energy costs impact the macroeconomic health of the 
United States both for primary energy users and end-use 
consumers?
    Dr. Thorning. Well, certainly. The overall impact of higher 
energy prices impacts low-income minority communities severely 
because low-income people may spend, you know, 15 to 20 percent 
of their income on energy. In your State of Texas, which has 
one of the highest electricity prices in the country, I think 
is due in part to the renewable portfolio standards that have 
been put in place there.
    So macroeconomic studies over the last decade analyzing 
cap-and-trade proposals, many of which the ACCF has prepared 
and put forward, show significant impacts across the economy 
because as electricity prices rise, you tend to see loss of 
manufacturing jobs, you tended to see outsourcing of jobs, you 
tend to see people substituting--spending more on energy and 
less on other goods and services. So the whole economy is 
dragged down as one important component is increased in price. 
So that's why I think it is imperative that our policymakers 
weigh the costs and the benefits of the proposals that this 
Administration has put forward and EPA's plans because, as we 
have already discussed, the impact of curbing our emissions 
here will have almost no impact on global concentrations.
    Mr. Babin. So I assume that high energy prices are spilling 
over and impacting everyday items as well----
    Dr. Thorning. Yes, and the----
    Mr. Babin. --and you say the entire economy.
    Dr. Thorning. The converse is true. Due to the fall in the 
price of natural gas because of hydraulic fracturing, we have 
seen a moderation of electricity prices. We have seen the 
resurgence of manufacturing industries who use natural gas as a 
feedstock. We have seen a lot more activity and job growth in 
the sector, so that has been a great boon to the economy. And 
policies that make those more difficult are certainly going to 
slow our economic recovery.
    Mr. Babin. Absolutely. Okay. So do you think going right 
along with those same--along those same lines, do these energy 
prices impact national security as well and the stability of 
our financial markets?
    Dr. Thorning. Yes, because as energy prices rise, that 
means we're diverting resources to--you know, to the 
consumption of energy that could perhaps be devoted toward 
infrastructure spending, healthcare, national security. You 
know, if you look at our economy as a whole, if resources are 
going into a sector needlessly in the case of, you know, the 
climate plans this Administration has put forward, it will 
certainly weaken our ability to be competitive and to be strong 
nationally in terms of defense.
    Mr. Babin. Okay. And, Mrs. Harbert, would you like to 
comment on that as well? We are talking about stability of 
financial markets and impact on national security.
    Hon. Harbert. Keeping, you know, energy affordable and 
reliable here allows us to have a very healthy economy, and we 
need a healthy economy to be a very healthy, you know, national 
security apparatus and to be able to exert our power around the 
world. They are inextricably linked, and to the extent that we 
make our economy less competitive, that we are more focused on 
domestic problems, the less able we are to focus on the growing 
threat of terrorism.
    Let us not forget that also our ability to produce more 
energy here at home and use it here at home is allowing us not 
to import and not to finance some of those countries and 
organizations around the world that don't like us so much.
    Mr. Babin. All right. Thank you so very much. And to follow 
up where my colleague here, Mr. Palmer, I think we don't have 
to go too much farther into the history books to see that we 
have had climate change over the centuries, even during human 
existence and not just going back pre-human. And this is 
something that's very common in--when we see our environment 
and our climate change for the warmer or for the cooler for 
that matter.
    But I want to thank each and every one of you. I yield back 
my time, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Babin. And the gentleman, 
Mr. Palmer, is recognized to put something into the record 
here.
    Mr. Palmer. Yes, Mr. Chairman. I would like to enter into 
the record a report called ``Activist Facts.''
    Chairman Smith. Okay. Without objection, that will be made 
a part of the record as well.
    [The information appears in Appendix II]
    Mr. Palmer. Thank you.
    Chairman Smith. We have no other Members to ask questions, 
and so before we adjourn, I just want to thank all four of you 
again for your testimony today. It has just been outstanding. 
We appreciate the time and effort you contributed to this 
hearing. And stay in touch with us. Thank you all.
    We stand adjourned.
    [Whereupon, at 11:47 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



        
Responses by Dr. Judith Curry


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by The Honorable Karen Harbert


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Mr. Jake Schmidt

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Dr. Margo Thorning


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           Documents submitted by Representative Zoe Lofgren



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







           Documents submitted by Representative Gary Palmer


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


              Documents submitted Chairman Lamar S. Smith


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                Document submitted by Dr. Margo Thorning


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
